           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:      INFORMATION: Audit Announcement—Federal                   Date:    August 18, 2005
              Aviation Administration’s Oversight of Airport
              Revenue
              Project No. 05A3015A000

  From:                                                               Reply to
              David A. Dobbs                                          Attn of:   JA-10
              Assistant Inspector General
               for Aviation and Special Program Audits

    To:       Ramesh K. Punwani
              Assistant Administrator
               for Financial Services/CFO

             The Office of Inspector General is scheduling an audit of the Federal Aviation
             Administration’s (FAA) oversight of airport revenue. The FAA is currently
             reviewing revenue diversions at Phoenix Sky Harbor and San Francisco
             International Airports. It has expressed concern that diversions may be
             occurring at other airports and has requested our assistance in conducting
             additional reviews. The objective of the audit is to determine if selected airports
             are complying with revenue use requirements.

             We plan to begin the audit in September 2005. We will contact your audit
             liaison to arrange an entrance conference. Our staff in San Francisco, California,
             will conduct the audit. Stephen Jones is the Project Manager for this audit. If
             you have any questions or need additional information, please contact him or
             Robin Hunt, Deputy Assistant Inspector General for Aviation and Special
             Program Audits, at (415) 744-3090.

                                                     #

             cc: FAA Deputy Administrator
                 FAA Associate Administrator for Airports
                 Anthony Williams, ABU-100
                 Martin Gertel, M-1
